<html>
<title> - FISCAL YEAR 2010 BUDGET FOR THE OFFICE OF INTELLIGENCE AND ANALYSIS OF THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
FISCAL YEAR 2010 BUDGET FOR THE OFFICE OF INTELLIGENCE AND ANALYSIS OF 
                  THE DEPARTMENT OF HOMELAND SECURITY 

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON INTELLIGENCE, INFORMATION
                 SHARING, AND TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 24, 2009

                               __________

                           Serial No. 111-26

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

51-634 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 































                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Eric J.J. Massa, New York
Dina Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director

                                 ------                                

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                     Jane Harman, California, Chair
Christopher P. Carney, Pennsylvania  Michael T. McCaul, Texas
Yvette D. Clarke, New York           Charles W. Dent, Pennsylvania
Ann Kirkpatrick, Arizona             Paul C. Broun, Georgia
Al Green, Texas                      Mark E. Souder, Indiana
James A. Himes, Connecticut          Peter T. King, New York (Ex 
Vacancy                                  Officio)
Bennie G. Thompson, Mississippi (Ex 
    Officio)

                    Thomas M. Finan, Staff Director
                        Brandon Declet, Counsel
                   Natalie Nixon, Deputy Chief Clerk
               Deron McElroy, Minority Subcommittee Lead






















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Jane Harman, a Representative in Congress From the 
  State of California, and Chair, Subcommittee on Intelligence, 
  Information Sharing, and Terrorism Risk Assessment.............     1
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     2

                               Witnesses

Mr. Bart R. Johnson, Acting Under Secretary, Office of 
  Intelligence and Analysis, Department of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6


FISCAL YEAR 2010 BUDGET FOR THE OFFICE OF INTELLIGENCE AND ANALYSIS OF 
                  THE DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                        Wednesday, June 24, 2009

             U.S. House of Representatives,
                    Committee on Homeland Security,
    Subcommittee on Intelligence, Information Sharing, and 
                                 Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 311, Cannon House Office Building, Hon. Jane Harman [Chair 
of the subcommittee] presiding.
    Present: Representatives Harman, Carney, Kirkpatrick, 
Thompson (ex officio), McCaul, and Dent.
    Ms. Harman. The hearing will come to order. Good morning, 
and welcome to the subcommittee's fiscal year 2010 budget 
hearing for the Department of Homeland Security's Office of 
Intelligence and Analysis. That is a mouthful.
    Let me first take the opportunity to acknowledge the wise 
decision made by Secretary Janet Napolitano this week to shut 
down the National Applications Office and its related program. 
Under her leadership, DHS has recognized what a number of us 
have advocated for the last 2 years, that this program offered 
neither a desired capability for State, local, and Tribal law 
enforcement, nor adequate protection for privacy, civil rights, 
and civil liberties. With that good start, I am delighted to 
welcome the Acting Under Secretary Bart Johnson to the 
subcommittee and also to acknowledge that sitting behind him in 
the front row is Tom Finan, who was former counsel to the 
majority of the subcommittee, who has fled us to join DHS. In 
reverse, I would like to recognize Michael Blinde, who was 
formerly at DHS, who has fled you to join the subcommittee as 
counsel. So I am not sure what all the implications of this 
are, but I think it is a net plus for both sides.
    Mr. Johnson, your distinguished record of more than 30 
years as a State law enforcement official gives you special 
insight into our subcommittee's focus on improving accurate, 
actionable, and timely sharing of Homeland Security information 
with State, local, and Tribal partners. Your written testimony 
is excellent. I just commended you personally and heard from 
you that you wrote most of it personally. It is exceptionally 
good, and I also told that to your Secretary when I spoke to 
her on the phone yesterday.
    It clarifies a role for the Office of Intelligence and 
Analysis that I personally completely agree with, one that 
pulls information from the Federal intelligence community, DHS 
intelligence components, State and local law enforcement and 
fusion centers, combining it to create products that provide 
regional and national assessments of threats to the homeland. 
I&A after all must connect the dots so that cops on the beat, 
America's first preventers, can get the information they need 
in a form they can use in order that they will know what to 
look for and what to do.
    This is what we have been saying up here for years and 
years. We believe, and I think you would agree, that our first 
preventers are most attuned to their local communities and will 
have the best chance, far better than a bureaucrat in 
Washington or a politician in Congress, to know if something 
looks suspicious. If they have the right intelligence products, 
they will be best positioned to do something about it.
    Thankfully, because of your law enforcement experience, I 
believe you understand this. So the question we always have to 
answer is, how can I&A make our homeland safer? I think a good 
part of that answer is to develop products and distribution 
methods to give law enforcement better information.
    Let me highlight two issues, though, before I yield the 
floor to the Ranking Member, that I also think we have to 
consider. One is--and you mentioned this in your testimony--and 
that is the overuse of outside contractors. I was surprised to 
learn recently from one of those contractors, and I am 
certainly not implying they don't render good service, but I 
think as much as 50 percent of the analysis done at I&A is 
contracted out. I don't think that is a good idea at all. It is 
expensive and it will not get us to where we need to go, which 
is to have this hyper-sensitivity to the needs of local law 
enforcement. So I know you are addressing this. I would like 
you to expand on this in your comments.
    Second is the need always to respect civil rights and civil 
liberties. The dissolution of NAO, your efforts to hire a 
privacy officer, and your requirement that I&A personnel 
undergo privacy and civil liberties training are very good 
initiatives. They are, however, merely first steps. So I hope 
you will amplify again on how privacy and civil liberties will 
always be part of the procedures and protocols of your office.
    We hope and expect that you will engage with us in a candid 
dialogue and information sharing over the next months. This is 
not an adversarial relationship. It is a partnership, and I 
really believe, Mr. Johnson, that your skill sets will make I&A 
finally into the intelligence function that many of us who 
voted for the Homeland Security Department in the first place 
intended, and I commend you again for your participation in 
this and for your excellent testimony and now yield to the 
Ranking Member, Mr. McCaul, for any opening remarks that he 
has.
    Mr. McCaul. Thank you, Madam Chair. Let me be the first to 
congratulate you on your recent victory regarding the NAO. I 
know you have worked very hard on that effort. Mr. Johnson, 
welcome to the committee. I enjoyed our visit recently and I 
want to echo the Chair's comments about this being a 
partnership, not a game of gotcha. We want to work together 
with you. You have a unique background and set of skills for 
this job that I think is going to greatly enhance DHS's 
position with respect to local law enforcement.
    Let me also say that since the House Appropriations 
Committee has already reported out the Homeland Security 
appropriation legislation for fiscal year 2010, it is important 
that we use our time here today to talk about how the House 
Appropriations Committee funding for the analysis and 
operations account will affect the Department's mission. 
Although the I&A budget numbers are classified, we should be 
able to get a general sense of whether or not the appropriators 
are providing adequate resources and funding necessary to 
fulfill its critical mission.
    Let me just say that I know the amount that came out of the 
appropriations committee was roughly $11.8 million short of 
what the President requested, and I think that is going to be 
an issue that I will be focusing on at this hearing. Of 
particular significance is the funding allocated for the fusion 
centers and support for them. I think we can all agree that 
they play a critical role in facilitating information sharing 
at all levels of government. We need to ensure that these 
centers are receiving all that they need to work effectively.
    We must remember that if the Office of Intelligence and 
Analysis as a whole is not provided the resources it needs, it 
will not have the capability to provide adequate support to the 
fusion centers and countless other programs so important after 
9/11. It is also important to note this is the first budget to 
fund the substantial increases in authority resulting from the 
9/11 Implementation Act which this committee passed and 
realigned the responsibilities of the Office of Intelligence 
and Analysis and added additional responsibilities to the under 
secretary. Therefore, again sufficient funding in my view is 
needed to help realign your efforts and your office's efforts 
according to this legal mandate.
    Again, I am concerned that the appropriations committee may 
not have provided enough of the funding necessary to accomplish 
the goals and what H.R. 1 set out for your office and for the 
Department to do.
    So with that, I look forward to hearing your testimony, and 
I yield back to the Madam Chair.
    Ms. Harman. I thank the gentleman for yielding. Now I want 
to recognize the Chairman of the full committee for opening 
remarks, but also to tell him that when I speak of partnership, 
he has been a terrific partner on this effort to get the 
Department to appreciate the risks of proceeding with the NAO, 
and I thank you very much, Mr. Chairman, for your enormous 
effort and support on this issue and many other issues, and I 
yield to you for opening remarks for 5 minutes.
    Mr. Thompson. Thank you very much, Madam Chair, and I would 
like to thank you for holding this hearing on the President's 
fiscal year 2010 budget request for the Office of the 
Intelligence and Analysis. I would also like to thank Acting 
Under Secretary Bart Johnson for being present to testify 
before the subcommittee for his first time in his new capacity.
    First of all, Madam Chair, I would like to commend 
Secretary Napolitano for doing the right thing with respect to 
the NAO. This committee, as you know, has had serious concerns 
since the recessed announcement of that entity and we have 
followed it almost daily with that concern. While there are 
significant issues with it, again Secretary Napolitano in a lot 
of our estimation did the right thing, and I commend her for 
that.
    That being said, Mr. Johnson, you have some challenges. A 
recent report about right-wing extremism came out. We don't 
want to get caught up in the semantics of the report, but we 
think there was some vetting that that report required that was 
overlooked, and it is that vetting that we had issue with that 
produced a product that I think would not have been in that 
same format had the vetting occurred. I would like some 
assurance from you that that is now in place; the secretary 
committed it to this Member from Pennsylvania, but she also 
committed to letting us know what the personnel actions that 
were taken as a result of that report, and I am not certain, 
Mr. Carney, you received any information. But we still are 
looking for whatever personnel actions did occur relative to 
that report.
    Fusion centers are important. There is a need to have 
uniformity and connectivity with them. A number of us have been 
in fusion centers all over the country. The one thing we can 
say is we have not found one that looks like another, and we 
just hope that is not indicative of the failure to connect the 
dots between them.
    So we are looking for some direction from the Department to 
help us put that whole situation together because we think it 
is absolutely important.
    Apart from that, the committee's loss with Tom Finan is 
your gain. There is no question about that. You have a first-
class expert on your team. We trust you will take advantage of 
it. If you don't, we will take him back.
    Apart from that, I want to echo the Chair Harman's 
challenges you face at I&A but with your background you can do 
it. We are committed as a committee to help make that happen, 
and I look forward to the testimony, Madam Chair. I yield back 
the balance of the time.
    Ms. Harman. Thank you, Mr. Chairman. Other Members of the 
subcommittee are reminded that under committee rules opening 
statements may be submitted for the record.
    It is now my pleasure to welcome our witness this morning. 
Bart Johnson is the Acting Under Secretary for the Office of 
Intelligence and Analysis. Prior to his appointment at the 
Department of the Homeland Security, Mr. Johnson served as the 
Director of Homeland Security and Law Enforcement at the Office 
of the Director of National Intelligence. His work focused on 
bridging the intelligence community with Federal, State, local, 
and Tribal customers. Before this, Mr. Johnson served as a 
Colonel with the New York State police. He possesses over 30 
years of law enforcement experience.
    Without objection, your excellent and lengthy statement 
will be inserted in the record, and I would now ask you, Mr. 
Johnson, to summarize your statement for 5 minutes.

STATEMENT OF BART R. JOHNSON, ACTING UNDER SECRETARY, OFFICE OF 
   INTELLIGENCE AND ANALYSIS, DEPARTMENT OF HOMELAND SECURITY

    Mr. Johnson. Thank you very much. I just want to start off 
by thanking you, Madam Chair, Mr. McCaul, and Mr. Thompson and 
the rest of the distinguished Subcommittee on Intelligence, and 
it is my pleasure to be here today to speak about the 
President's 2010 budget.
    As all of you well know, I just started 4 short weeks ago 
as a principal deputy under secretary for intelligence and 
analysis and until such time an under secretary is selected, I 
will also be the acting under secretary. So basically I am 
wearing two hats at this point in time.
    You accurately stated that it is my first time in this 
capacity, but I am kind of embarrassed to say it is my first 
time, period, of testifying before Congress. So bear with me. I 
was to appear back in April 2007 to testify about controlled 
unclassified information but because of the tragic death of 
Trooper David Brinkerhoff trying to apprehend a felon, this 
group wrote into the record and you, Madam Chair, spoke to that 
issue, and I want to take this time to appreciate very much the 
kind comments that were shared with the family because of that 
very unfortunate tragedy.
    But having said that, I am very, very honored to be here in 
this current capacity. I have met with and spoke at length with 
the Secretary. I agree with everything that she is pushing 
forward, which very fortunately is directly in line with 
everything that you all have been saying for the past several 
years, that I have been operating within for the past several 
years and also agree with 100 percent.
    I appreciate the comments regarding the more than 31 years 
in law enforcement. I come from an organization based on pride 
and tradition, rule of law, accountability, all the things that 
make a great organization. I also come from a world where it is 
all operational. So I am very familiar with those type 
activities. So I hope I bring something to the table.
    The most striking event that occurred to me, and many of 
you, were the events of September 11 where foreign-directed, 
foreign-supported, foreign-born individuals came to this 
country and let upon us one of the biggest tragedies we have 
ever seen. I lost two personal friends in those attacks, 
Firefighter Sammy Ortiz and Port Authority Officer Paul 
Jurgens. I live with that each and every day.
    On that same day, Superintendent James McMahon tasked me to 
build an intelligence operational investigative component 
within the New York State Police, and I have been doing nothing 
but since that time. So I am very familiar with a lot of the 
programs that all of us have been building together as we move 
forward.
    I also had the opportunity to spend a year and a half as 
the Director of Homeland Security and Law Enforcement with the 
ODNI, where I got to see and witness the fine work and the 
bravery of many members of the intelligence community, and I 
also saw how those two worlds collided on September 11 which 
clearly illustrated the need to get the right information to 
the right people at the right time.
    In my new role as a Principal Deputy, I often reflect upon 
the fine work of Charlie Allen and General Hughes in what they 
set into motion, and I am going to build upon that. I am going 
to learn from them. I have been meeting with them already. 
Nobody can illustrate to me the importance of getting 
information to the first-line officers. It was the Maryland 
State trooper that stopped Ziad Jarrah on September 9. They are 
the people, they are the front lines that really need 
operationalizing and to receive the information. That is what 
all of you have been saying since that tragic event.
    So what do we have right now? We have 70 fusion centers and 
there is a baseline capability that is being built. They need 
to be enhanced, they need to be matured. Like the Secretary has 
stated, it is her role to counter terrorism, leverage those 
fusion centers in connecting the dots and making sure that we 
are empowering the people that need to be empowered with the 
information that they need.
    So what am I going to do? I am going to work with the State 
and locals, solicit their thoughts before I do anything, like I 
have been doing over the past 2 weeks. I am going to embrace 
and fully support the fusion centers. I am going to move more 
assets to the field. I am going to look at to professionalize, 
which they are already professional, the Federal workforce and 
become less reliant on the contractors that we are already 
relying on. We are going to pull information, integrate 
information, translate where required information, and really 
put an operational spin into the hands of the people that need 
it the most.
    I understand the rule of law. I have testified in a court 
of law. I know how to play by the rules and the needs to do 
that. So I am going to work with the ACLU. Finally, with all of 
your support--and I appreciate the very kind comments and the 
partnership that is illustrated. You have my assurance that I 
will be transparent. I will get back to you on issues that I 
need to get back to you on, and I will work fully with you.
    Thank you for your support.
    [The statement of Mr. Johnson follows:]
                 Prepared Statement of Bart R. Johnson
                             June 24, 2009
                              introduction
    Chairwoman Harman, Ranking Member McCaul, and distinguished Members 
of the subcommittee, thank you for the opportunity to appear before you 
today to discuss the President's fiscal year 2010 budget request for 
the Department of Homeland Security's Office of Intelligence and 
Analysis (I&A).
    On May 18, 2009, I was appointed by Secretary Napolitano to be the 
principal deputy under secretary for intelligence and analysis (I&A) at 
the Department of Homeland Security (DHS). I am honored to have been 
given this opportunity to serve as the principal deputy under secretary 
at the request of Secretary Janet Napolitano. I proudly accepted this 
new mission at her request and at the urging of many of my friends and 
colleagues who work in homeland security, law enforcement and 
intelligence. As you are aware, there currently is no under secretary 
in place at I&A; for now, and for the foreseeable future, I will also 
serve in the capacity of acting under secretary.
    Since this is the first time I have interacted with some of you, I 
want to share with you a little bit about my background. I served as a 
law enforcement officer in the State of New York for nearly 31 years 
and retired as the New York State Police Field Commander in December 
2007. The terrorist attack of September 11, 2001 was among the most 
tragic experiences of my law enforcement career. That day impacted all 
Americans directly and many of us lost loved ones. Two of my close 
friends, New York City Fire Fighter Samuel Oitice and Port Authority 
Police Officer Paul Jurgens, were among those killed.
    Later in the day on September 11, 2001, I was assigned by the 
Superintendent of State Police to build an investigative and 
intelligence-led effort to work with other agencies to prevent, deter, 
detect, and identify persons or organizations who are trying to carry 
out other attacks in our country. It was through these efforts that I 
worked with a number of agencies at the Federal, State and local 
levels--including the Federal Bureau of Investigation (FBI) and the 
Department of Homeland Security (DHS)--doing similar work. It was 
through the relationships I developed with professionals at these 
agencies that I was able to work on a number of programs that are now 
in place throughout the country and in the Nation's capital to make us 
safer. I would especially like to thank General Hughes and Charlie 
Allen--my predecessors--for all of their work in standing up I&A and 
making it an essential part of the Nation's homeland security effort.
    In January 2008, I was selected by then Director Michael McConnell 
of the Office of the Director of National Intelligence (ODNI) to be the 
ODNI's Director of Homeland Security and Law Enforcement. For the next 
year and a half, I gained a better understanding of the intelligence 
community (IC) and what it does to better protect our country. These 
experiences with the ODNI have given me a better understanding of the 
importance of sharing intelligence and information with all of our 
partners, both foreign and domestic. As acting under secretary, I will 
continue to leverage the resources of the ODNI in my work at I&A.
    During my short time in my new position, I have had the opportunity 
to meet and interact with several Members of Congress and their staffs. 
I appreciate these interactions and I find them to be informative and 
helpful. I look forward to meeting and consulting with all of you in 
the coming months.
    I would also like to state that over the past month I have had 
numerous opportunities to interact with the I&A staff through Town Hall 
meetings that I have held and informal ``walk arounds'' during which I 
have met quite a few of the employees. I have found them all to be 
deeply committed to DHS' work and the important role they play in 
performing the mission that I am going to outline for you today. I look 
forward to working with each of them.
    Finally, I would like to state that throughout my career, I have 
taken my responsibility of protecting the public and upholding the rule 
of law very seriously. I have always given my utmost to carry out the 
mission while respecting the civil rights and civil liberties of the 
people I serve. I am enthusiastic about the way forward, focused on the 
challenges ahead, and look forward to working with the committee.
            the office of intelligence and analysis mission
    As Secretary Napolitano recently stated, the No. 1 responsibility 
of DHS is preventing terrorism. Terrorism is the reason DHS was 
created. More specifically, it is the reason that 22 legacy agencies 
were joined together. To that end, the primary mission of I&A is to be 
the recipient and developer of intelligence that creates the kind of 
situational awareness that we need to stop a terrorist plot in its 
tracks and save lives.
    Critical to this effort is providing intelligence in a useable form 
to State, local, and Tribal governments and the private sector. As 
Secretary Napolitano has said, while there may be a lot of information-
sharing going on--among and between agencies and departments at all 
levels of government--the key is disseminating useable intelligence to 
our State, local, Tribal, and private sector partners; getting similar 
intelligence back from those partners for I&A's ``in-house'' analysis 
work; and making this two-way exchange happen on a real-time basis. 
That is exactly the niche that Congress intended DHS to fill when 
passing the Homeland Security Act of 2002. It is precisely where I will 
be taking I&A during my service as acting under secretary.
    The more than 70 State and local fusion centers that now exist 
Nation-wide are an important step in the right direction and, in my 
view, point the way forward. Secretary Napolitano made it clear at the 
National Fusion Center Conference this past March that fusion centers 
are ``the centerpiece of State, local, Federal intelligence-sharing for 
the future and that the Department of Homeland Security will be working 
and aiming its programs to underlie Fusion Centers.'' To that end, we 
must look at information sharing in fundamentally new ways. Our goal is 
not just to share a fact or a report, but rather to ensure that fusion 
centers and fusion center personnel have the capacity not only to 
gather and share information at the State, local, and Tribal levels but 
also to analyze that information meaningfully--to convert what might 
appear to be bits of unrelated information into a product that can help 
authorities protect their communities from attack. That also requires 
I&A to rise to the challenge. It must have at its core an analytical 
team that accesses this kind of useful intelligence from fusion centers 
and adds to their analysis intelligence and other information that is 
available to DHS and other IC agencies about terrorist tactics and 
plans. In the process, I&A will be well-positioned to create useful 
homeland security intelligence products that can be shared back with 
State, local, Tribal and private sector partners.
    The National Suspicious Activities Reporting (SAR) Initiative, 
which for the first time creates a systematic way for State, local, and 
Tribal law enforcement officers to connect the dots in their own 
jurisdictions about terrorism and other criminal activities, will be an 
important source of data for both fusion center and I&A analysis. The 
engagement of the American Civil Liberties Union (ACLU) and other 
privacy and civil liberties organizations in the development of the SAR 
Initiative, moreover, is the same kind of engagement that I&A plans to 
initiate and maintain as it refocuses on building a robust and 
transparent homeland security analysis function. As a former law 
enforcement professional who well understands the critical importance 
of the rule of law in making our people and places truly safe, I pledge 
to you that strict adherence to privacy, civil rights, and civil 
liberties laws and regulations will be the starting, mid- and end-
points of I&A's homeland security intelligence work under my watch.
    As I&A lays out a strategic vision going forward, we will focus on 
several principles.
Sharing Information With State, Local, and Tribal Governments
    First, the needs of State, local, and Tribal governments will drive 
I&A's intelligence products. I&A will work closely with State, local, 
and Tribal law enforcement officials, emergency managers, homeland 
security advisers, mayors, Governors, county officials, and Tribal 
leaders to better understand the types of information they need, and 
the format in which they need it.
    Second, I&A's production and dissemination process will be 
streamlined and optimized. Intelligence and other information intended 
for State, local, and Tribal authorities will be provided rapidly, 
using dissemination processes that ensure that all State, local, and 
Tribal decision-makers responsible for counterterrorism and other 
homeland security efforts have the information and intelligence they 
need to make critical decisions. I&A will work closely with the FBI, 
NCTC, the DEA and other members of the IC to clearly define roles and 
responsibilities related to the dissemination of Federal intelligence 
and information to State, local, and Tribal officials. I&A will work 
with these same entities to provide State, local, and Tribal officials 
all intelligence and information necessary to support investigative 
activity, protective actions, and response planning--particularly 
during rapidly evolving threat-related situations and major events.
    Third, I&A will better leverage State, local, and Tribal analytic 
capabilities with the goal of developing synergistic analytical 
excellence throughout the process. I&A will work closely with State, 
local, and Tribal authorities to improve the capability of State and 
local fusion centers to gather, assess, analyze, and share information 
and intelligence regarding threats to both local communities and the 
Nation. I&A's representatives in State and locally-owned analytic 
centers will work closely with representatives from locally-based DHS 
operational components as well as other locally-based Federal personnel 
(FBI, DEA, ATF, etc.) to avoid duplication of effort and ensure close 
cooperation in the sharing of Federal information. While fusion centers 
are the central component of I&A's efforts to share information with 
State, local, and Tribal authorities, they do not represent the 
entirety of those efforts. Accordingly, I&A will ensure that mechanisms 
are in place to share information with fusion centers and other State, 
local, and Tribal officials as appropriate.
    Fourth, I&A will analyze locally generated information to identify 
regional trends and national threats. Each day across the Nation, 
State, local, and Tribal officials gather information in the course of 
their everyday efforts to provide emergency and non-emergency service. 
This information may serve as the first indicator of a potential threat 
to the homeland. The ability to blend and analyze information gathered 
and documented by multiple localities is vital to I&A's ability to 
identify regional and national patterns and trends that may be 
indicative of an emerging threat to the homeland. To this end, I&A will 
support Federal efforts to institutionalize the SAR Initiative.
Improving Coordination Among DHS Components
    The consolidation of 22 legacy agencies into today's DHS was 
intended to enhance Federal homeland security efforts by enabling 
closer operational coordination and eliminating duplications in 
mission-related activities. In order to strengthen the ability of the 
various components to function as a unified department, I&A must 
coordinate, centralize, and integrate information- and intelligence-
sharing activities across components that are distinct in their 
missions and operations--thereby structuring a true DHS Intelligence 
Enterprise. At the same time, individual components must continue to 
strengthen their internal operational capabilities so that they can 
continue to carry out critical law enforcement, transportation-related, 
emergency response, and border security efforts. To achieve these 
objectives, information-sharing efforts by individual components must 
be organized based on a ``shared mission'' concept. Across DHS there 
are multiple operational, technological, programmatic and policy-
related activities underway that focus on both improving the sharing 
and analysis of information between departmental components and/or on 
improving the sharing of intelligence and information between DHS and 
other Federal, State, local, Tribal, and foreign government entities 
and the private sector. Despite investing significant resources in 
these efforts, more can be done. Accordingly, I&A will reevaluate the 
current approach to how the various components design, procure, and 
implement information-sharing technology. I&A will put in place 
protocols, safeguards, and a governance structure that ensure that the 
DHS Intelligence Enterprise better supports the missions of individual 
components, I&A, and DHS as a whole.
Protecting Privacy and Civil Liberties
    Efforts by I&A to gather, assess, analyze, and share intelligence 
and information will be guided by the dual imperatives of protecting 
the Nation from those who wish to harm it and protecting privacy, civil 
rights, and civil liberties. I&A will work closely with officials at 
all levels of government, including the Department's own Privacy Office 
and Office for Civil Rights and Civil Liberties, as well as 
representatives of the privacy, civil rights, and civil liberties 
communities, to ensure that information sharing efforts comply with 
both the letter and spirit of the law. In fact, I&A is in the process 
of hiring a privacy officer to work closely with senior leadership on 
these important issues.
       the work of the office of intelligence and analysis today
    The dedicated staff of I&A strives every day to provide accurate, 
actionable, and timely intelligence to support DHS; private sector 
critical infrastructure owners and operators; Federal, State, local, 
and Tribal officials; our component agencies and the other members of 
the IC. As the current leader of this effort, I am responsible for 
managing the daily activities of I&A and ensuring we are appropriately 
organized and positioned to adequately meet the demands of our diverse 
customer set. As DHS' Acting Chief Intelligence Officer, as codified in 
the Implementing the Recommendations of the 9/11 Commission Act of 2007 
(9/11 Act), I am also responsible for integrating DHS' intelligence 
components; developing programs such as the State and Local Fusion 
Center (SLFC) Program described more fully below; and furthering the 
DHS Intelligence Enterprise--all key examples of DHS's capabilities to 
support our homeland and national security objectives. As the Acting 
DHS Information Sharing Executive, I work to integrate and facilitate 
information sharing within DHS and between DHS and our many customers. 
As the Acting DHS Executive Agent for support to State, local, and 
Tribal organizations, moreover, I manage the network of intelligence 
personnel deployed across the country through the SLFC Program to 
ensure a two-way exchange of information between our first preventers, 
first responders and the Federal Government. Finally, as the Acting 
Principal Accrediting Authority for DHS's classified information 
management systems, I am responsible for the intelligence networks and 
systems across DHS.
    I&A continues to position itself to meet all of these growing 
demands. We have increased and improved our analytic tradecraft in the 
arena of domestic threat analysis--a notable accomplishment in an area 
that has been traditionally outside the scope of the IC. I&A has 
elevated border security to a division level to better focus analysis 
on this issue and ensure that border-related activities are more 
effectively integrated across I&A and the DHS Intelligence Enterprise. 
Working with other Federal agencies and State, local, and Tribal 
partners, I&A continues to grow the quality and frequency of the 
Homeland Intelligence Reports (HIRs) that it distributes. These reports 
rapidly provide State, local, Tribal, and Federal entities access to 
unevaluated information that may be of intelligence value and also 
inform the IC on matters that could be relevant to homeland and 
national security. We likewise have, along with the DHS Chief 
Information Officer, recently established a joint program office to 
manage DHS' classified information systems. Furthermore, in my first 
weeks in my new position, I instituted mandatory privacy training for 
all I&A personnel. These are just some of the examples of the progress 
I&A has and will continue to make in the months and years ahead.
    I&A adds unique value when it comes to combating terrorism by 
viewing it through the prism of its impact on the homeland. This 
holistic perspective allows DHS to make connections--if and where they 
exist--between terrorism and other illicit transnational criminal 
activities, such as illegal immigration and smuggling, trans-national 
organized crime or the trafficking of illicit drugs. Moreover, these 
illicit activities often constitute additional threats to the homeland, 
and I&A must address them as well in order to support both our 
departmental mission and to help secure the public from harm.
 state and local fusion centers and the interagency threat assessment 
                     and coordination group (itacg)
    Securing the homeland is a complex mission that requires a 
coordinated and focused effort by Federal, State, local, and Tribal 
authorities. I&A leads this coordinated effort through direct support 
to State and local fusion centers through its State and Local Fusion 
Center (SLFC) Program and a multi-faceted approach for providing 
intelligence and information to non-Federal and private sector 
partners. I am proud to say that by the end of this year, I&A will have 
deployed intelligence officers to 45 fusion centers. These dedicated 
officers are at the front lines working side-by-side with our first 
preventers and first responders. Our fiscal year 2010 request provides 
the resources necessary to increase deployments to all 72 approved 
fusion centers, including centers located in Urban Area Security 
Initiative (UASI) cities. We are also developing production plans that 
focus on State, local, Tribal, and private sector requirements. Based 
on the feedback of our partners, I&A has implemented a ``single point 
of service'' contact to ensure that any State, local, or Tribal support 
request (SLSR) makes of a fusion center receives a timely and 
appropriate response. A Program Assessment Rating Tool audit of fusion 
center representatives conducted by the Homeland Security Institute 
earlier this year credited this initiative with significantly improving 
the process for requesting and receiving a timely response from DHS. It 
is my goal to forward deploy additional analysts to the field to major 
cities and our component agencies.
    In response to the needs of the fusion centers, we are also 
strengthening core competency training programs--in cooperation with 
the ODNI, the FBI and the Bureau of Justice Assistance--in order to 
make our partnerships with State, local, and Tribal entities even more 
effective. I&A training programs for fusion center employees are 
designed to meet their intelligence training needs, and they contain 
many of the best practices of training programs that have been 
developed by the IC. Among other things, I&A offers Critical Thinking 
and Analytical Methods (CTAM), Principals of Intelligence Writing and 
Briefing (PIWB), Basic Intelligence Threat and Analysis Course (BITAC), 
Mid-level Intelligence Threat and Analysis Course (MITAC), as well as 
the Analytic and Critical Thinking Skills Workshop training modules to 
our fusion center partners.
    We likewise take our responsibility to protect and respect the 
privacy, civil rights, and civil liberties of the public in the fusion 
center environment very seriously. We partner with the DHS Privacy 
Office, the DHS Office for Civil Rights and Civil Liberties, the DHS 
Office of the General Counsel, the ODNI Civil Liberties and Privacy 
Office, the ODNI Office of the Program Manager for the Information 
Sharing Environment, and the ODNI Office of the General Counsel to make 
sure that all of our efforts are consistent with our obligations. We 
require all I&A staff assigned to fusion centers to receive specific 
training and to have subject matter expertise on all relevant privacy, 
civil rights, and civil liberties laws and regulations as a matter of 
practice and as required by the 9/11 Act. Working with our partners in 
the field, moreover, we are equally committed to ensuring that all 
State, local, and Tribal representatives working in fusion centers are 
supported and fully cognizant of their privacy, civil rights, and civil 
liberties obligations. Together with our Federal partners, we offer 
technical assistance in meeting these goals. In its initial Privacy 
Impact Assessment of the program, required under the 9/11 Commission 
Act, the DHS Privacy Office has recommended that each fusion center 
conduct its own privacy impact assessment, develop a privacy protection 
policy, make it available to the public, and then engage with its local 
advocacy communities. Approximately 60% of fusion centers have 
completed such plans to date. Going forward, I&A will continue its 
efforts to implement this recommendation at fusion centers.
    In addition to placing intelligence professionals at the State and 
local fusion centers, we have worked with our Federal partners to 
establish the Interagency Threat Assessment Coordination Group (ITACG). 
The ITACG was created in the National Counterterrorism Center (NCTC) to 
help us meet the information needs of our State, local, and Tribal 
partners. I&A has provided two senior I&A officers, along with two 
officers from the FBI, to lead the stand-up and operation of this 
organization. Over the past year, the ITACG has increased in size and 
perspective. In total, four Federal representatives, five State and 
local personnel (four police and one firefighter), one part-time Tribal 
representative, and supporting contractors are working in dedicated 
spaces with essential systems connectivity in NCTC.
    The ITACG continues to mature in providing valuable input to 
intelligence products disseminated to State, local, and Tribal 
organizations and is engaged in DHS, FBI, and NCTC production processes 
and activities critical to serving non-Federal customers. Since its 
initial stand-up in October 2007, the ITACG has reviewed thousands of 
intelligence products for State, local, and Tribal consumers of 
intelligence, and has offered important suggestions to make them more 
useful to our first responders. Of particular note is the Roll Call 
Release that was developed by ITACG. The Roll Call Release is a 
collaborative DHS, FBI, and ITACG effort that addresses specific needs 
and requirements of ``street-level'' first responders. Like a 
traditional roll call release for officers at the beginning of their 
work shifts, this ITACG product provides situational awareness and 
other actionable information that first preventers can use in the 
course of their daily work. It has been very well received--as 
evidenced by both the appearance of Roll Call Releases in State and 
local-originated publications and by the high number of downloads from 
Government Web sites.
    As we expand our cooperation with our State, local, and tribal 
partners I&A will increasingly position itself as a partner that 
understands the needs of these organizations, responds to their 
informational and intelligence requirements, and writes reports and 
assessments that serve them well.
                             cybersecurity
    DHS is a leading agency of the Comprehensive National Cybersecurity 
Initiative as prescribed by Homeland Security Presidential Directive 
23/National Security Presidential Directive 54. I&A provides the DHS 
Office of Cybersecurity and Communications and National Cybersecurity 
Division with intelligence support to help secure Executive Branch 
unclassified civilian (.gov) networks and critical information 
infrastructure, including parts of the .com domain, State and local 
networks, and telecommunications infrastructure. The Homeland Security 
Act prescribes that DHS shall share threat information with State, 
local, and Tribal authorities and the private sector. I&A uses these 
authorities and the public-private partnership framework as outlined in 
the National Infrastructure Protection Plan to collaborate with the 
National Protection and Programs Directorate to provide cyber threat 
analysis and warning on issues to defend critical U.S. cyber 
infrastructures and information systems.
    Specifically, I&A provides cyber threat briefings and intelligence 
products to State, local, and Tribal authorities on a regular basis. 
For example, I&A analysts recently provided cyber threat briefings to 
the Texas Homeland Security Fusion Center, the Wisconsin State and 
Local Fusion Center, and the Multi-State Information Sharing and 
Analysis Center (MS-ISAC). In addition, I&A has developed a line of 
intelligence products tailored to State, local, and Tribal authorities 
to help them understand the cyber threat that they face so they can 
better allocate their computer network defense resources. I&A's 
cooperation with the U.S. Computer Emergency Readiness Team (US-CERT), 
moreover, enables the U.S. Government and private sector to more 
effectively deter, detect, defend, and respond to adversarial activity 
against these vital resources.
              integrating the dhs intelligence enterprise
    As the acting under secretary and chief intelligence officer of the 
Department, it is my responsibility to work with the component agencies 
to transform I&A into a service-oriented provider of intelligence to 
the DHS components themselves and to consolidate intelligence assets 
throughout the DHS Intelligence Enterprise. To facilitate this, I chair 
the Homeland Security Intelligence Council (HSIC), which provides a 
venue for all Enterprise leaders to discuss issues and collectively 
make decisions of consequence to the entire Enterprise. Under these 
authorities, I am responsible for conducting an annual DHS intelligence 
program review and work with the DHS Office of Policy and the Chief 
Financial Officer to issue intelligence guidance as part of our 
resource planning and programming cycle.
    As you know, I&A is legally required to present a consolidated DHS 
intelligence budget to the Secretary. The program reviews provide the 
analysis and insights necessary for us to identify comprehensively the 
requirements and activities of the Enterprise. These reviews will also 
demonstrate how to streamline and structure Departmental activities to 
leverage efficiencies of scale and eliminate unnecessary programmatic 
duplication. In the future, we will seek to expand and diversify beyond 
annual program reviews to include periodic, focused, issue-based 
evaluations of smaller component intelligence activities throughout the 
entire year.
    A key element of integrating the Intelligence Enterprise is to work 
with the other intelligence components within DHS. As we continue 
forward with this effort, training and education will be key. I&A will 
address this need by providing training and professional development to 
the entire Enterprise. During this fiscal year, 130 Enterprise 
personnel have completed the BITAC and 15 have completed the MITAC.
                      national applications office
    At the direction of Secretary Napolitano, I am conducting a top-to-
bottom review of the National Applications Office (NAO). Specifically, 
I am starting where Congress said the NAO should have started more than 
2 years ago: with DHS' State, local, and Tribal partners. I already 
have had two telephone conferences with representatives from the Major 
Cities Chiefs Association; the International Association of Chiefs of 
Police; the National Sheriffs Association; the Fraternal Order of 
Police; the Major County Sheriffs Association; the National Native 
American Law Enforcement Association; the Association of Law 
Enforcement Intelligence Units (LEIU), State homeland security advisers 
and other key stakeholders. I am working with these stakeholders to 
determine how the NAO might meet their homeland security needs to 
protect lives and property in their communities. Once, and if, any such 
needs are identified, I plan to work closely with Congress, the Privacy 
Office, the Office for Civil Rights and Civil Liberties, and the DHS 
Office of the General Counsel to determine if they comply with DHS 
policy and legal requirements. Once we have those answers, I will make 
my recommendation on the future of the NAO to the Secretary for her 
final determination. Let me be clear: my review and final 
recommendation to the Secretary will be made in accordance with the 
Constitution, the legal framework that law enforcement has worked under 
for generations.
                          counterintelligence
    No intelligence element can be completely effective without a 
strong counterintelligence capability. DHS continues to develop its 
counterintelligence elements in order to be able to assess the threats 
posed to DHS personnel, programs, operations, and technologies and to 
protect them from foreign espionage penetration. Counterintelligence 
must be a part of the DHS infrastructure and integrated into DHS 
operations. Support to our State, local, and Tribal partners; border 
security; cybersecurity; and information sharing generally all require 
counterintelligence support to be fully effective. For example, 
counterintelligence support to fusion centers is especially critical 
because I&A shares classified DHS information there. Furthermore, DHS 
must instill a culture of counterintelligence awareness throughout the 
Department in order to monitor foreign intelligence collection 
efforts--especially the nearly 2,000 personnel who are permanently 
assigned overseas and the many more thousands who travel abroad 
routinely. An effective, DHS-wide counterintelligence program is 
essential to the protection of DHS and its vital mission. Working 
closely with the FBI, we must swiftly identify foreign intelligence 
attempts to penetrate our operations and recruit our personnel, and we 
must effectively neutralize those threats wherever they may be. I 
consider this to be a priority for DHS and an area that requires 
additional investment in both the analytical and operational areas of 
counterintelligence.
                            border security
    Border security is a major priority of the President, Congress, and 
the Secretary. I&A has been working diligently with its partners and is 
well-positioned to meet the increasing requirements to provide 
intelligence support for border security operations. The office 
currently works with border security operators at all levels of 
government to ensure information sharing and intelligence support are 
sufficient to enable focused enforcement activities.
    Recently, I&A has been working very closely with our Federal, 
State, local, and Tribal partners to ensure that a logical and 
meaningful intelligence plan is developed to support operations in the 
field. As you are aware, the National Southwest Border Counter 
Narcotics Strategy was announced by the Secretary, the Attorney General 
and the Director of the Office of Narcotics Drug Control Policy on June 
5, 2009. This strategy contains clear and significant direction 
regarding the need for an intelligence plan and implementation. Under 
my leadership, I&A will be a full participant with our partners in this 
process.
    A critical part of this effort is the development of the southwest 
border Homeland Intelligence Support Team (HIST) that operates from the 
El Paso Intelligence Center (EPIC). EPIC hosts not only I&A and other 
DHS representatives but also a number of our other key partners 
including the Drug Enforcement Agency (DEA) and the FBI. The HIST is 
designed to integrate and fuse key Federal, State, local, and Tribal 
intelligence and information in the region in support of border 
security operations. I&A border security analysts assigned to the HIST 
(and elsewhere) identify and assess threats to the security of the 
Nation's air, land, and maritime borders and analyze the methods by 
which terrorists and their associates attempt to penetrate those 
borders. They focus on five primary areas: Illegal immigration, human 
trafficking; terrorist use or manipulation of homeland-bound maritime 
and air transit; terrorist exploitation of specific U.S. border 
security policies and procedures; and attempts by suspect persons to 
enter the homeland and transport illegal contraband. I&A is currently 
evaluating this effort. Based on the results of our review, we will 
examine the potential establishment of a HIST along the northern border 
to provide similar integrated cross-departmental intelligence support 
to border operations.
    In addition to I&A's efforts at the HIST and at headquarters, our 
analysts are also participating in community-wide counterterrorism 
research, analysis, and production planning--aligning our areas of 
expertise with overarching documents such as the National Strategy for 
Homeland Security or the Counterterrorism Implementation Plan which 
will, in turn, influence the National Southwest Border Counter 
Narcotics Strategy.
                      report and review processes
    One of my primary areas of attention when I arrived at I&A on May 
18, 2009, was the framework that I&A applied to the review, clearance, 
and dissemination of its analytical intelligence products. This review 
centered on the release of the April 7, 2009 Rightwing Extremism 
assessment.
    To strengthen our existing processes, an interim clearance process 
was put in place shortly after the release of the April 7, 2009 
assessment. That process established mandatory review and concurrence 
by four offices--Civil Rights and Civil Liberties, the Privacy Office, 
Office of the General Counsel, and I&A's Intelligence Oversight 
Section. Any non-concurrence that could not be resolved was elevated to 
the deputy secretary for review, ensuring a much more coordinated 
review of I&A's products than had previously been in place. We are 
currently in the process of finalizing additional guidance to further 
clarify and streamline the clearance process. I look forward to 
briefing you and members of the staff on the new procedures in the near 
future.
    The lessons of the extremism assessment are important ones. I want 
to assure you that DHS takes very seriously its mission of preventing, 
preparing for, and responding to all threats posed by foreign and 
domestic terrorists. As you know, the Secretary has pledged that 
sharing information with State, local, and Tribal law enforcement 
partners will be a guiding principle as we work to fulfill the mission 
of securing the homeland from terrorist violence and related criminal 
activity. At the same time, DHS will not target, for information 
gathering or enforcement purposes, individuals or groups based on their 
associations, beliefs, or other Constitutionally-protected activities.
           the president's fiscal year 2010 budget submission
    Finally, I would like to address how the President's fiscal year 
2010 budget submission supports I&A and the programs outlined above. 
This budget request continues our commitment to a national fusion 
center network that is already demonstrating results by providing I&A 
with additional funds to expand its representation at State and local 
fusion centers across the country. The fiscal year 2010 budget will 
enable I&A to deploy additional intelligence analysts and secure 
communications to all 72 State and local fusion centers; provide 
security awareness training to fusion center personnel accessing 
sensitive Federal information; more robustly conduct privacy and civil 
liberties awareness and protection training; and continue I&A's efforts 
to provide intelligence support to fusion centers from headquarters. I 
am encouraged by Congress' continuing support to the SLFC Program and 
look forward to working with you to fully fund the program in fiscal 
year 2010 in order to meet both the President's goals and objectives 
and the requirements of the 9/11 Act.
    The fiscal year 2010 budget also provides additional funds to hire 
seven additional cybersecurity analysts. This budget request will allow 
I&A to grow the cyber threat analysis element within I&A to provide for 
strategic warning of cyber threats to our Federal, State, local, 
Tribal, and private sector stakeholders in addition to supporting our 
component agencies. I&A will be better able to fully coordinate and 
integrate our cyber threat analysis with US-CERT, the National Cyber 
Security Directorate, law enforcement, and the IC. Furthermore, we will 
be in a better position to leverage Department and IC expertise to 
provide analytic insight into cyber threats to U.S. Government and 
critical infrastructure networks; fully analyze cyber intrusions and 
emerging cyber threat trends; and provide strategic cyber threat 
assessments for our Federal and non-Federal partners.
    Our fiscal year 2010 budget request also includes additional 
funding to improve information-sharing capabilities across DHS. The 
requested funding will allow I&A to deploy approximately six homeland 
secure data network (HSDN) systems to DHS components. Current 
classified communication capabilities are limited, and this request 
will increase DHS' ability to share classified information throughout 
the Enterprise and with our State, local, and Tribal partners.
    Finally, and perhaps most importantly, the fiscal year 2010 I&A 
budget request includes--as you have urged--the conversion of over 100 
contractors into Federal positions. As you know, when DHS was 
established several years ago, we had to rely heavily on contractor 
support in order to quickly build an intelligence organization from the 
ground up. Since then, I&A and DHS have made a concerted effort to 
maximize the number of Federal positions. If approved, these 
conversions will enable I&A to maintain a more consistent workforce and 
greatly reduce the amount of inherently governmental work performed by 
contractor support.
                               conclusion
    Members of the subcommittee, I want to convey to you my personal 
sense of urgency and commitment to the responsibility we all share--
ensuring that DHS and its partners have the intelligence capability to 
address threats to the homeland while performing their mission within 
the rule of law. I&A is a modestly sized program, representing less 
than one-half of 1 percent of the total IC workforce, but our mission 
set belies our size. The President's budget request will enhance 
Departmental intelligence capabilities to address the ``complex and 
dynamic threats'' outlined in the National Strategy for Homeland 
Security.
    I thank you for the opportunity to appear before this subcommittee 
to provide you some background on my career and why I came to work for 
DHS; to share my thoughts on the future of I&A; and to review the major 
funding priorities in fiscal year 2010. These priority areas are vital 
to advancing the DHS Intelligence Enterprise to where it should be. 
Overall, the realization of a national homeland security intelligence 
enterprise rests on addressing these areas. None of us--whether at the 
Federal, State, local, or Tribal level; in the IC; or in the private 
sector--can unilaterally predict the threat, warn our stakeholders, and 
take action to mitigate the risks. Our success depends on our ability 
to work together while never losing sight of the privacy, civil rights, 
and civil liberties of the public that we are sworn to protect. Our 
success in protecting our Nation's security depends on how relentlessly 
we collaborate.
    Thank you and I look forward to your questions.

    Ms. Harman. The Chairman just said wow, and I think that is 
a sentiment that we all share for your rookie performance, Mr. 
Johnson. That is an A-plus. Exactly on time and consistent with 
much more lengthy testimony. That was superb. I know for the 
moment you are the acting under secretary, but I would say that 
not only I but a number of us on this committee want to remove 
that word ``acting'' from your title as soon as we possibly 
can, and it is something I have urged the secretary to do and 
hopefully that will be another one of her wise decisions in the 
near future. You are not permitted to comment on that because 
you cannot turn this down.
    I just want to give you a chance to elaborate on something 
you didn't mention in your oral testimony, and that is the fact 
that the fiscal year 2010 budget provides for the conversion of 
over 100 contractors into Federal positions. I have stated my 
concern about the overuse of Federal contractors, both because 
it is expensive and because they don't provide the same skill 
sets in terms of the understanding of needs of State, local, 
and Tribal entities that I think the employees do.
    So I want you to elaborate on that, I would also like you 
to talk about the ITAC-G, the Interagency Threat Assessment 
Coordination Group, which has been the tool, although not as 
robust as we would like, to incorporate State, local, and 
Tribal people in the preparation of intelligence products at 
the Federal level.
    So could you address those two issues in 4 minutes, please?
    Mr. Johnson. Certainly. Regarding the contractors, it is 
right now about 60 percent contractors, 40 percent 
governmental. I come from a world where there were no 
contractors. You did what you had to do to make the job work. I 
do now understand that oftentimes there are a need for 
contractors for very specific reasons, but not to run the 
organization, not to have governmental people defer their 
decisionmaking process to those contractors.
    So what we are going to try to do by the end of 2010 is to 
flip that number as a start point and then develop a plan. I 
had an off-site yesterday. This was a priority for me. I need 
to come up with a plan. I don't have the plan now, but I assure 
you that we will have a plan and work very, very gainfully and 
proactively and aggressively to try to make that flip and then 
use that as a start point. It is not an endpoint. We need to 
continue to work forward in that regard.
    Regarding the ITAC-G, I am very familiar with the 
Interagency Threat Assessment and Coordination Group. I sat on 
the other side of the table from the DHS employees and I sat 
alongside with Kerry Sleeper, the former director of the 
Vermont State police, and we clearly illustrated to the 
Department of Homeland Security why the needs and the 
requirements and the thought process of State, local, and 
Tribal and the private sector need to be borne into the 
production process, the writing of reports, and basically the 
``so what'' factor. That is not to criticize the expertise of 
the intelligence community, but they write for a different 
customer. We are the customer. So you can't have a better 
integrator, I think, sitting at this table now, now bringing 
that experience to I&A as a whole. So you have somebody on the 
inside.
    So I have been working with those detailees. I know those 
detailees. I recruited those detailees to the ITAC-G and I am 
going to continue to do that. I worked very closely with 
Director Mike Leiter. I respect him and I know him and I have 
committed to working with him, also.
    I actually hosted my first ITAC-G advisory committee 
meeting, and we spoke about a lot of the things that we need to 
refine, refocus on, and really then to develop a plan to 
implement them. I think they have done a good job. Are they 
there yet? No, I don't believe they are, but it is not for a 
lack of trying. So I am going to do whatever I can by providing 
the support and direction that I need to get them to the next 
level and then at the same time build that same type of 
capability within I&A so everybody within the entirety of I&A 
are looking towards the needs of the State, local, and Tribal.
    I see I have 1 minute and 20 seconds left. That is not to 
diminish the Federal people because I view a customs and border 
protection officer standing at the border stopping cars, 
interacting with people, falling into that same group of State, 
local, and Tribal law enforcement entities and those types of 
customer base, and that is my goal.
    Ms. Harman. Well, thank you very much. You again stopped 
before time ran out and I just want to say a couple of things. 
No. 1, we share your assessment about Mike Leiter. We think the 
NCTC is a critically important entity. I now recall that some 
of that function was supposed to be in the Homeland Security 
Department, and first former President Bush set up the 
Terrorist Threat Integration Committee and then it morphed into 
the NCTC. But the close collaboration between your office, I&A, 
the ITAC-G, and the NCTC is what is going to make this whole 
function work best.
    I think one of the things we may want to do soon is take a 
little road trip to see the NCTC. I have been there on several 
occasions. But to see it and to meet the ITAC-G folks who are 
now in place, and I take you at your word, you are going to add 
to their number and diversity because I think that will make 
all your products better.
    My time is expired, and I now yield 5 minutes to the 
Ranking Member, Mr. McCaul.
    Mr. McCaul. I thank the Madam Chair. Let me commend you on 
your testimony and experience. State and locals are the eyes 
and ears on the ground and in the best position to apprehend 
any threat, terrorists certainly, and experience shows that and 
history shows that.
    Two quick--I want to hit some issues on the budget. I 
offered an amendment to restore the funding. The appropriations 
committee came out with a $345.5 million number for this 
division. The President's request is $357 million. I had an 
amendment to restore that to the President's request. It was 
not made in order, unfortunately. So with the writing on the 
wall, how are you going to deal with that gap in funding? How 
is that going to affect your office?
    Mr. Johnson. First of all, I appreciate your efforts. 
Second of all, we will work within the President's budget and 
whatever funding we are provided. We had an off-site yesterday. 
First of all, if we are going to start to convert contractors 
to full-time governmental employees, that should result in a 
cost savings. We are reevaluating the workforce, setting the 
priorities, and the priorities are going to be State, local, 
and Tribal fusion centers. Priorities are going to be the 
suspicious activity reporting, priorities are going to be 
training for analytical expertise within those fusion centers. 
There is going to be training for our own cadre. We are going 
to be cross-fertilizing detail people into I&A to get people 
from Commander McNamara, who is seated behind me from the LAPD, 
to have them understand what the needs and requirements are on 
a more timely basis. So instead of spending a year there, they 
are going to be dropped in for a month or 2 and then depart, 
have new people in. I am confident that the President's budget 
and whatever amendments and adjustments that have been made, we 
could work within that, and I am confident that no program will 
suffer any harm and will continue to move forward.
    I would just like to add, I know this committee as a whole 
is very, very committed to State and local fusion centers at 
its current situation and there have been some enhancements to 
it, and I very much recognize it, appreciate it, and I know 
that is where it needs to be and I will continue to do that.
    Mr. McCaul. Thank you. One other brief issue. The border 
intelligence efforts that you have in your office, I know the 
Department initiated the southwest border surge that would 
triple the number of intelligence analysts working at the 
southwest border to deal with the growing violence in the 
region. I come from a border State, Madam Chair does as well. 
This is a real concern for us.
    Can you talk a little bit more about those efforts? I know 
you have created a new division, and of course from a resource 
standpoint I wish we could give you more. But can you comment 
on what you are doing?
    Mr. Johnson. Certainly. We have the Border Focus Group. It 
is run by Tim Sampson. I am very familiar with the northern 
border coming from New York State and all the challenges 
associated with it, somewhat familiar with the southwest 
border. I was there once. I plan on going back there again. We 
have the Homeland Security intelligence support team situated 
at EPIC. I know Mr. Art Doty. He is a real champion at EPIC for 
all these efforts. Assistant Secretary Ted Sexton is very much 
involved. Mr. Burson I have met with. The one concern that I 
had was the number of intelligence efforts that are underway 
and whether or not they are connected to one another. Through 
those conversations and interactions I no longer have that 
concern. I believe they are interrelated. I am tasked with 
developing a plan to come together with the intelligence 
efforts. I spoke to Mr. Tony Placido of the DEA, whom I have 
known for a long period of time from New York. We are going to 
be connected at the hip to co-chair that effort, to make sure 
that whatever intelligence needs to get in the hands of the 
State, local, and Tribal and really let them know what we want, 
why we want it, where to send it, where they send it, what they 
can expect in return, and really develop a more robust feedback 
mechanism so they know that the information that they are 
providing is having value to solving the issues that exist.
    Mr. McCaul. Thank you. I want to follow up with you on that 
specifically in the future. With the 20 seconds I have left, I 
do have to throw out, as the Chairman brought up, the report 
that came out of your office regarding right-wing extremists. 
Secretary Napolitano came forward and very candidly admitted 
that the ball was dropped, that mistakes were made, and that 
the vetting process would be applied next time. But can you 
tell us briefly what occurred with that report?
    Mr. Johnson. Certainly. First of all, I believe that report 
could have been much better written and it should have focused 
on violent extremism, violent crime. That is where the linkages 
need to be made. The ball was dropped as it relates to not 
following the procedures that were established, and people need 
to be held accountable to that because I believe that is an 
anomaly that occurred. I believe that we need to do better than 
that, that we had the professional staff and the expertise to 
do better than that. I have been the recipient of many very 
fine resource-cited products, and that is where we are and need 
to go and it is going to be enhanced.
    So what am I doing about it? This afternoon at about 1:30 
we are going to be meeting on that clearance process to make 
certain that it has within it the tenets that are necessary 
without diminishing the outflow of information and the 
analytical assessments that need to take place without it being 
influenced, to have people encumbered and be reluctant to 
produce what they need to produce. So it is a balance, but I 
think we are moving in the right direction to get what 
everybody needs in that regard.
    Mr. McCaul. I look forward to your leadership on that, and 
I yield back.
    Ms. Harman. Thank you. The gentleman's time has expired. I 
now recognize Mrs. Kirkpatrick of Arizona for 5 minutes.
    Mrs. Kirkpatrick. Thank you, Madam Chair. Mr. Johnson, 
thank you for your excellent testimony. I, too, represent a 
border State, Arizona, and my district is largely rural. Rural 
law enforcement has seen an increase in human trafficking, drug 
smuggling, almost more than they can handle. I just want to 
know what efforts the fusion centers are making to work with 
rural law enforcement.
    Mr. Johnson. Certainly. I just want to share a story with 
you. I stood up what I thought was the first intelligence 
center in the country, the New York State intelligence center, 
until I shared that conversation with Secretary Napolitano and 
she said I beg to differ, the Arizona center was the first 
center. So I stand corrected in that regard.
    Mrs. Kirkpatrick. Thank you.
    Mr. Johnson. But Arizona has one of the most mature centers 
in the country, as do several locations, and I know there are a 
number of them in Texas also. What the fusion centers need to 
do is they need to engage with the county sheriffs, they need 
to engage with the smaller law enforcement organizations. The 
Federal Government can't do everything every time for 
everybody. So they need to rely on the fusion centers to really 
look at that anomalous behavior that reaches reasonable 
suspicion, that could be criminal in nature, and really have a 
reporting mechanism so it is received at the ACTIC, the Arizona 
Fusion Center. It is based on requirements, needs, awareness, 
and collection processes that formulate in the rule of law, and 
then know where to send it then. So what we are doing is we are 
working with the EPIC, the El Paso Intelligence Center with Art 
Doty to really be that clearinghouse to receive that 
information for one-stop shopping, and then sharing it with the 
Federal law enforcement community. There are dialogues going 
on, which I don't believe I can talk about, I apologize, in 
this venue, on the other side of the border.
    So it is the lawful passing, you know, U.S. person, 
reasonable suspicious information back and forth on the border 
because you know that it is going to be an Arizona road trooper 
or county sheriff that is going to stop an individual with 
marijuana, with human smuggling. That is going to have pocket 
litter of the names of the individuals and the phone numbers, 
and there is going to be investigative leads. So those 
investigative leads need to go to the right person to be looked 
at, deconflicted so the best possible solution could come from 
that information. So it is all about awareness and networking 
and getting everybody on the same page. But they perform a 
vital role in that regard, the fusion centers.
    Mrs. Kirkpatrick. Thank you. I appreciate your 
understanding of that, and they are going more and more to the 
back roads to traffic rather than using the highways, which 
causes even more stress on our local law enforcement. So I look 
forward to working with you on that. Thank you, Mr. Johnson.
    Mr. Johnson. Thank you.
    Ms. Harman. Thank you, Mrs. Kirkpatrick. We have a vote on 
a motion to adjourn. So what I think we will do is have 
questions for Mr. Dent for 5 minutes, and then we will recess 
this hearing and reconvene it in the Visitor Center in a 
setting where we can review the classified budget.
    So, Mr. Dent, it is now your turn to ask 5 minutes of 
questions of the witness.
    Mr. Dent. Thank you, Madam Chair, for accommodating me. Mr. 
Johnson, I am delighted you are here. Can you please explain 
the role of the DHS's Intel and Analysis and how it relates to 
the intelligence components of Homeland Security such as TSA's 
Office of Intelligence? I would like to just hear what you have 
to say about that issue.
    Mr. Johnson. Certainly. What I look at is the No. 1 
customer for me is the secretary, to support her, and then 
other customers and partners are the State and local fusion 
centers, which I spoke to, and then certainly the component 
agencies. In my current role I wear two hats, No. 1 being the 
under secretary with the intelligence community and then 
equally important is the chief intelligence officer for the 
Department. Building the intelligence enterprise and each of 
the component agencies are part of that.
    So I had a meeting on that the other day, the Homeland 
Security Intelligence Committee, during which time there were 
representatives from TSA, CBP, ICE, Secret Service, and all the 
other component agencies. What I said to them is that as the 
CINT, the CINT has the responsibility to coordinate activities, 
not take over activities, not run activities, but try to 
coordinate it. Very similar to what the ODNI is doing with the 
intelligence community. I think it is a very good thing because 
it creates efficiencies, we have a general understanding of 
issues, elevating those issues, getting the support of the 
issues whether it be through the secretary or venues such as 
this. What I need to do is just make sure they get the 
intelligence support, the training, the connectivity, working 
with the intelligence community, getting them the access to the 
information that they need, the clearance, the processes, right 
to release tear-line information, all the different issues that 
you have been working with.
    What do I expect from that? I expect to have access to 
their information so then it can be synthesized and translated 
for the State, local, and Tribal and then shared as appropriate 
with the intelligence community because a lot of information 
resident within the country does, and I know it does, have an 
impact on activities going on overseas, and conversely the 
information over there is very, very relevant to what TSA is 
doing and all the other component organizations that you 
mentioned.
    Mr. Dent. I would also like to ask you, too, this committee 
used to continuously receive weekly unclassified intelligence 
summaries from TSA highlighting significant security incidents 
around the country. In February we stopped receiving those 
reports. These unclassified reports were, I think, very useful 
in highlighting real security threats the TSA has to manage and 
help us make better-informed statisticians on the need for new 
technologies like the whole body imaging to defeat these 
threats, which, by the way, we had a problem with on the floor 
the other day.
    Can you please tell me why these reports stopped coming to 
the committee? Would you commit to working with us to once 
again including us on the distribution?
    Mr. Johnson. Yes, sir. I have heard that also and I 
understand that. I am reluctant to say why they stopped on 
January 21.
    Mr. Dent. Could you help us resume them?
    Mr. Johnson. They are going to resume. Please bear with me. 
Give me a little bit of time and we will work through it. We 
will work with your staff to get you the items and issues and 
topics that are relevant to you. But we will work with you on 
that point.
    Mr. Dent. Okay. Thank you. I would yield back at this time.
    Ms. Harman. Thank you, Mr. Dent. So, Mr. Johnson, thank you 
for your testimony in open session. It was a wow. We do have 
the sense, I think I can say this in a bipartisan basis, that 
you will be an able partner with this subcommittee focusing on 
accomplishing a mission that we share. There will be obviously 
a lot of work to do in accomplishing the mission fully. There 
is no such thing as 100 percent protection, but I think you 
will improve the odds by preparing products that are better 
suited to the questions that local law enforcement asks, by 
including the private sector in the distribution of materials 
and by bringing your own street cred to the game, and that is 
something that I think will be a game-changer, the background 
that you bring to this and the credibility that you have.
    So again welcome, and we will now adjourn the public 
session, the public part of this hearing, and reconvene shortly 
after this vote in the House Visitor Center, Room 301. We will 
have staff off the House floor to lead those like me who never 
can find their way around that place. I am sure you already 
know where it is, Mr. Johnson. But for the rest of us, we will 
hope to find you there probably in about 15 or 20 minutes.
    Mr. Johnson. Thank you.
    Ms. Harman. The open portion of the hearing is adjourned.
    [Whereupon, at 10:48 a.m., the subcommittee was recessed, 
to reconvene in closed session.]

                                 <all>

</pre></body></html>
